                                            SOCIAL SECURITY

MEMORANDUM
Date:   March 10, 2004                                                                 Refer To:

To:     Martin H. Gerry
        Deputy Commissioner
         for Disability and Income Security Programs

From:   Assistant Inspector General
         Audit

Subject: Evaluation of the Accelerated eDib System – Fifth Assessment (A-14-04-14057)



        The Social Security Administration’s (SSA) Office of the Inspector General (OIG) has
        completed its fifth assessment in our ongoing evaluation of the Accelerated eDib
        (AeDib) initiative (formally the Electronic Disability or eDib initiative). We conducted this
        fifth assessment from August 2003 through March 2004 at SSA Headquarters in
        Baltimore, Maryland. While we did not conduct an audit of the AeDib process, our
        assessment addressed those issues that arose at the AeDib Steering Committee, or
        where we were asked to provide comments to the Office of Systems.

        BACKGROUND

        As part of our participation in the Accelerated eDib (AeDib) Steering Committee and
        prior evaluations1 of the AeDib project we recommended that the Agency conduct a risk
        assessment of the AeDib system. The Clinger-Cohen Act of 1996 (CCA)2 requires
        proposed IT projects be qualitatively and quantitatively assessed for risk and return.
        The Office of Management and Budget (OMB) also requires Federal agencies to
        consider risk when deciding what security controls to implement.3 OMB requires a risk-
        based approach to determine adequate security, and it encourages agencies to
        consider major risk factors, such as the value of the system or application, threats,
        vulnerabilities, and the effectiveness of current or proposed safeguards.


        1
         Assessment of the Electronic Disability Project’s Pre-2005 Business Process, (A-14-02-22066)
        February 26, 2002, and Evaluation of the Accelerated eDib System Third Assessment, (A-14-03-13047)
        December 20, 2002.
        2
         Sections 5122(a), 5122(b)(3), and 5122(b)(5) of the CCA, Pub. L. No. 104-106 §§ 5122(a), 5122(b)(3),
        5122(b)(5), 110 Stat. 186, 683 (1996).
        3
            OMB Circular No. A-130, Appendix III, Security of Federal Automated Information Resources, page 8.
Page 2 - Martin H. Gerry

The National Institute of Standards and Technology (NIST) also recognizes the
importance of conducting risk assessments for securing computer-based resources. A
security risk assessment enables management to make informed risk-based business
decisions.

The purposes of our fifth assessment of AeDib were to: (1) evaluate the five risk
assessments issued by the Agency in July 2003; and (2) determine whether the Agency
should perform a Post-Implementation Review of AeDib before the scheduled national
roll-out. The OIG had earlier called for these risk assessments, first at the AeDib
Steering Committee meetings and later, formally, in its third AeDib assessment. We
were asked by the Office of Systems to evaluate the Agency’s risk assessments for
AeDib. We reported our findings separately to the Office of Systems, which has already
taken action to improve these assessments.

RESULTS OF OUR EVALUATION OF THE FIVE AeDib RISK ASSESSMENTS

The five risk assessments for which the Agency received contractor assistance to
complete and then requested the OIG to evaluate are as follows:

     1.   The Electronic Disability Collection System.
     2.   The Document Management Architecture.
     3.   AeDib Internet Applications.
     4.   The Office of Hearings and Appeals Case Processing and Management
          System.
     5.   The Disability Determination Services (DDS) AS/400.

The first four assessments were performed to address the risks to the major AeDib
software subsystems (See Table 1 in Attachment A for a summary of the software
related recommendations), while the fifth addressed the hardware system that supports
the disability claims processing software used by the DDSs in the 50 States and 4 other
jurisdictions (See Table 2 in Attachment B for a summary of the AS/400 related
recommendations).

We found that the text supporting the security plan recommendations in all four software
risk assessments used general support system terminology instead of major application
terminology. Additionally, the Agency agreed with our conclusion that the four software
risk assessments should be updated. We found that SSA had already begun
addressing the issues the contractor raised about the AS/400. We recommend that the
Agency amend the text supporting the security plan recommendations and update the
four software risk assessments. We recommend the Agency have its contractor review
the pertinent control documents that SSA recently issued and update the AS/400
assessment. We also recommend the Agency conduct Post-Implementation Reviews
of each AeDib software subsystem during Fiscal Year 2005.
Page 3 - Martin H. Gerry

Four Risk Assessment Recommendations Caused Delays

SSA issued four risk assessments of the Agency’s AeDib software systems containing
recommendations using the terminology of OMB’s general support system4 (GSS)
criteria. However, the Agency did not determine that all four software systems met
OMB’s definition of a major application5 (MA) until after the risk assessments were
issued in July 2003. As a result, the recommendations in the risk assessment did not
call for: (1) preparation of an Application Security Plan; and (2) conducting a review of
the application controls of these four systems. Shortly after we met with the Agency on
October 7, 2003, we brought up the MA issue and the Agency took immediate action to
begin implementing the two remaining recommendations. The Agency completed the
Application Security Plans in December 2003 and expects to complete the review of the
application controls of the four systems by March 2004.

The Four Software Risk Assessments Needed Updating

We found that each risk assessment needed updating. In each of the four risk
assessments, SSA issued a set of five virtually identical recommendations. Appendix B
in all four software risk assessments did not cite any evidentiary support for 4 of the 5
recommendations made by the Agency. For the remaining recommendation in 2 of the
applications, Appendix B did cite evidentiary support for 6 of the 10 items reviewed, but
did not cite any support for the 10 conclusions in the other 2 applications.

Averaging the results of the four risk assessments, each risk assessment concluded
that the Agency did not plan to implement key security requirements even though about
40 percent of the requirements (39 of 98) designated by SSA as “Not Planned for
Implementation” were required by the Agency's Information System Security Handbook
(Handbook). However, we were assured by Agency officials that the risk assessments
simply needed updating and that SSA would in fact implement the requirements called
for by the Agency’s Handbook.




4
 A "general support system" or "system" means an interconnected set of information resources under the
same direct management control, which shares common functionality. A system normally includes
hardware, software, information, data, applications, communications, and people. A system can be, for
example, a local area network (LAN) including smart terminals that supports a branch office, an agency-
wide backbone, a communications network, and a departmental data processing center including its
operating system and utilities. OMB Circular No. A-130, Appendix III, section A.2.c.
5
  A "major application" means an application that requires special attention to security due to the risk and
magnitude of the harm resulting from the loss, misuse, or unauthorized access to or modification of the
information in the application. Note: All Federal applications require some level of protection. Certain
applications, because of the information in them, however, require special management oversight and
should be treated as major. Adequate security for other applications should be provided by security of
the systems in which they operate. Source OMB Circular No. A-130, Appendix III, section A.2.d.
Page 4 - Martin H. Gerry

The Disability Determination Services IBM AS/400 Risk Assessment

In July 2003, SSA released a risk assessment that addressed the adequacy of the
management, operational and technical security controls in place to secure the DDS
AS/400 environment that resides within each DDS. The document identified two issues
detailed in Table 2 in Attachment B, relating to the DDS AS/400, and recommended the
development of: (1) a System Security Plan for the AS/400 system; and (2) a formal
certification and accreditation process.

However, prior to the release of the risk assessment, the Agency’s existing guidance
already addressed these two issues and provided management with the operational and
technical security controls that DDSs should implement to protect sensitive SSA data.
The guidance is located in SSA’s DDS Security Document and risk model for AS/400s.
Therefore, SSA should have provided its contractor with these documents so that the
contractor could have reviewed the adequacy of SSA’s existing guidance, and assessed
how this guidance could be used to mitigate risks for the DDS AS/400s.

While SSA’s recent requirements for the DDSs are a major step to address the security
needs at the DDSs, the DDSs still need to enact the Agency’s requirements to make
them effective. Therefore, once the DDSs implement these new requirements, the
security of SSA’s data should be greatly enhanced. Furthermore, security at the DDSs
will take on increased importance in 2004, when SSA begins granting the DDSs direct
access to the Agency’s electronic folder. Since the electronic folder will contain
sensitive medical, claim and identity information, someone gaining improper access
through a DDS could obtain access to the Agency’s data.

SSA Should Perform a Post-Implementation Review of the Agency’s New
Electronic Disability Process Before the National Roll-Out is Completed

We believe the current Electronic Disability System is being implemented in a more
efficient manner than the two previous electronic disability projects.6 One reason for
improvement during this most recent project is because the Agency conducted a
post-implementation review of the prior application. The post-implementation review
helped the Agency assess why the previous systems had to be redirected, costing SSA
about $70 million.7 Office of Systems officials told us that they plan to do a
post-implementation review before the national roll-out of the AeDib software is
complete.




6
 SSA initiated the Modernized Disability System to redesign the disability claims process in 1992. The
project was redesignated the Reengineered Disability System in 1994.
7
 Information Technology Capital Planning and Investment Control Process at the Social Security
Administration, (A-14-99-12004) March 30, 2001, page D-2.
Page 5 - Martin H. Gerry

In February 1997, the General Accounting Office (GAO) issued guidance8 to all
Executive Branch agencies for evaluating IT investment decision making for
implementing the Clinger-Cohen Act of 1996 (CCA) and other major legislation. While
SSA is not required to adopt this guidance, the Federal Chief Information Officer
Council has endorsed this guidance as “best practices” for implementing CCA. The
guidance provides a three-phase process (Selection, Control, and Evaluation) for capital
planning and IT investments (see graphic of process below).



    S E LE C TIO N             C O N TR O L           E V A LU A TIO N
       PHASE                     PHASE                    PHASE



                             LE S S O N S LE A R N E D


The Evaluation phase “closes the loop” on the IT investment management process by
conducting post-implementation reviews. Post-Implementation reviews identify areas
where future decision making can be enhanced. Lessons learned during the evaluation
phase should be geared toward modifying future selection and control decisions.
Valuable lessons learned can be incorporated into the Selection and Control phases to
help minimize risk and maximize benefits on future IT projects. We highly suggest that
the Agency should perform a post-implementation review during Fiscal Year 2005.
Finally, the Agency needs to incorporate its new electronic disability system into its
Federal Managers’ Financial Integrity Act reviews that it contracts-out for audit.




8
 Assessing Risks and Returns: A Guide for Evaluating Federal Agencies’ IT Investment Decision-making,
GAO/AIMD-10.1.13, February 1997.
Page 6 - Martin H. Gerry

There is no expectation for the Agency to formally respond to this document. If you
have any questions or comments, please call me or have your staff contact Kitt Winter,
Director, Data Analysis and Technology Audit Division at (410) 965-9702, or Al Darago
at (410) 965-9710.




                                        S
                                        Steven L. Schaeffer

Attachments

cc:
Chief Information Officer
Deputy Commissioner for Systems
Deputy Commissioner for Operations
Acting Inspector General
Assistant Deputy Commissioner for
  Disability and Income Security Programs
Associate Commissioners for
  Disability Programs
Chair AeDib Steering Committee
Director, Audit Management and Liaison Staff
                                                                                       Attachment A


     Table 1: Findings for the Four Software Risk Assessments
                         BLSR
Number     Risk Level              Finding Description                     Recommendation
                          No.
                                      Management Control
6.1.1.1    Medium       MC1.1-   A System Security Plan          To comply with the requirements of
                        1.8      (SSP) has not been              OMB A-130, SSA should develop a
                                 completed and approved for      SSP for all four software components of
                                 all four software               AeDib.
                                 components of AeDib.
6.1.1.2    Medium       MC3.1-   Security controls need to be    The security controls for all four
                        3.10     reviewed on a periodic          software components should be
                                 basis.                          reviewed a minimum of once every
                                                                 3 years or whenever any of the four
                                                                 application conditions change.
6.1.1.3    Medium       MC5.1-   A formal system                 A formal C&A process should be
                        5.16     Certification and               completed for AeDib to ensure that all
                                 Accreditation (C&A) needs       security controls are implemented.
                                 to be completed for AeDib.
                                      Operational Control
6.1.2.1    High         OC1.1-   A contingency plan or           Complete a contingency plan and COOP
                        1.43     continuity of operations plan   for all four software components of
                                 (COOP) needs to be              AeDib. The plan should include
                                 completed for all four          preparations for maintaining all four
                                 software components of          software components of AeDib in the
                                 AeDib.                          event of a disaster.
6.1.2.2    Medium       OC2.1-   A formal documented             A formal CMP should be developed to
(DMA                    2.3      configuration management        prevent possible loss of data and
only                             process (CMP) needs to be       resources on the Document
finding)                         in place for new or revised     Management Architecture (DMA)
                                 hardware/software testing,      system.
                                 upgrades, and modifications.
                                       Technical Control
6.1.3.1    High         TC3.1-   Auditing functionality for      Auditing must be configured to capture
                        3.21     all four software               security events such as date and time of
                        MC3.1    components of AeDib             the event, applicant associated with the
                                 requires more detailed          event, type of event, actions performed,
                                 development of audit            system resources accessed, and the
                                 requirements.                   success or failure of the event. In
                                                                 addition, the audit trail should provide
                                                                 information about the originator of
                                                                 electronic transactions (i.e., sending
                                                                 location, sending entity) and other
                                                                 measures to ensure the integrity of the
                                                                 document.
                                                                                 Attachment B




                        Table 2: DDS AS/400 Findings
                       BLSR
Number    Risk Level              Finding Description                 Recommendation
                        No.
                                      Management Control
6.1.1.1   Medium       MC2.1-   A System Security Plan      To comply with the requirements of
                       2.8      (SSP) has not been          OMB A-130, SSA should develop a
                                completed and approved      SSP for the DDS AS/400.
                                for the DDS AS/400.
6.1.1.2   Medium       MC7.1-   A formal system             A formal C&A process should be
                       7.16     Certification and           completed for AeDib to ensure that all
                                Accreditation (C&A) needs   security controls are implemented.
                                to be completed for
                                AeDib.
